<html>
<title> - EPA'S RESOURCE CONSERVATION CHALLENGE</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



 
                 EPA'S RESOURCE CONSERVATION CHALLENGE

=======================================================================

                                HEARING

                               before the

          SUBCOMMITTEE ON ENVIRONMENT AND HAZARDOUS MATERIALS

                                 of the

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 20, 2004

                               __________

                           Serial No. 108-81

                               __________

      Printed for the use of the Committee on Energy and Commerce


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house

                               __________

                 U.S. GOVERNMENT PRINTING OFFICE

93-977                 WASHINGTON : 2004
_________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866)512-1800: 
DC area (202) 512-1800 Fax: (202) 512-2250 Mail: Stop SSOP, 
Washington, DC 20402-0001












                    COMMITTEE ON ENERGY AND COMMERCE

                      JOE BARTON, Texas, Chairman

W.J. ``BILLY'' TAUZIN, Louisiana     JOHN D. DINGELL, Michigan
RALPH M. HALL, Texas                   Ranking Member
MICHAEL BILIRAKIS, Florida           HENRY A. WAXMAN, California
FRED UPTON, Michigan                 EDWARD J. MARKEY, Massachusetts
CLIFF STEARNS, Florida               RICK BOUCHER, Virginia
PAUL E. GILLMOR, Ohio                EDOLPHUS TOWNS, New York
JAMES C. GREENWOOD, Pennsylvania     FRANK PALLONE, Jr., New Jersey
CHRISTOPHER COX, California          SHERROD BROWN, Ohio
NATHAN DEAL, Georgia                 BART GORDON, Tennessee
RICHARD BURR, North Carolina         PETER DEUTSCH, Florida
ED WHITFIELD, Kentucky               BOBBY L. RUSH, Illinois
CHARLIE NORWOOD, Georgia             ANNA G. ESHOO, California
BARBARA CUBIN, Wyoming               BART STUPAK, Michigan
JOHN SHIMKUS, Illinois               ELIOT L. ENGEL, New York
HEATHER WILSON, New Mexico           ALBERT R. WYNN, Maryland
JOHN B. SHADEGG, Arizona             GENE GREEN, Texas
CHARLES W. ``CHIP'' PICKERING,       KAREN McCARTHY, Missouri
Mississippi, Vice Chairman           TED STRICKLAND, Ohio
VITO FOSSELLA, New York              DIANA DeGETTE, Colorado
STEVE BUYER, Indiana                 LOIS CAPPS, California
GEORGE RADANOVICH, California        MICHAEL F. DOYLE, Pennsylvania
CHARLES F. BASS, New Hampshire       CHRISTOPHER JOHN, Louisiana
JOSEPH R. PITTS, Pennsylvania        TOM ALLEN, Maine
MARY BONO, California                JIM DAVIS, Florida
GREG WALDEN, Oregon                  JANICE D. SCHAKOWSKY, Illinois
LEE TERRY, Nebraska                  HILDA L. SOLIS, California
MIKE FERGUSON, New Jersey            CHARLES A. GONZALEZ, Texas
MIKE ROGERS, Michigan
DARRELL E. ISSA, California
C.L. ``BUTCH'' OTTER, Idaho
JOHN SULLIVAN, Oklahoma

                      Bud Albright, Staff Director
                   James D. Barnette, General Counsel
      Reid P.F. Stuntz, Minority Staff Director and Chief Counsel

                                 ______

          Subcommittee on Environment and Hazardous Materials

                    PAUL E. GILLMOR, Ohio, Chairman

RALPH M. HALL, Texas                 HILDA L. SOLIS, California
JAMES C. GREENWOOD, Pennsylvania       Ranking Member
HEATHER WILSON, New Mexico           FRANK PALLONE, Jr., New Jersey
VITO FOSSELLA, New York              ALBERT R. WYNN, Maryland
  (Vice Chairman)                    LOIS CAPPS, California
STEVE BUYER, Indiana                 MICHAEL F. DOYLE, Pennsylvania
GEORGE RADANOVICH, California        TOM ALLEN, Maine
CHARLES F. BASS, New Hampshire       JANICE D. SCHAKOWSKY, Illinois
JOSEPH R. PITTS, Pennsylvania        CHARLES A. GONZALEZ, Texas
MARY BONO, California                PETER DEUTSCH, Florida
LEE TERRY, Nebraska                  BOBBY L. RUSH, Illinois
MIKE ROGERS, Michigan                BART STUPAK, Michigan
DARRELL E. ISSA, California          GENE GREEN, Texas
C.L. ``BUTCH'' OTTER, Idaho          JOHN D. DINGELL, Michigan,
JOHN SULLIVAN, Oklahoma                (Ex Officio)
JOE BARTON, Texas,
  (Ex Officio)

                                  (ii)












                            C O N T E N T S

                               __________
                                                                   Page

Testimony of:
    Hale, Matthew, Deputy Director, Office of Solid Waste; 
      accompanied by David S. Hockey, Director of Resource 
      Conservation Challenge, U.S. Environmental Protection 
      Agency.....................................................     7
Additional material submitted for the record:
    Environmental Protection Agency, response to questions asked 
      during the hearing.........................................    25

                                 (iii)
















                 EPA'S RESOURCE CONSERVATION CHALLENGE

                              ----------                              


                         THURSDAY, MAY 20, 2004

              House of Representatives,    
              Committee on Energy and Commerce,    
                            Subcommittee on Environment    
                                   and Hazardous Materials,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 1:30 p.m., in 
room 2322, Rayburn House Office Building, Hon. Paul E. Gillmor 
(chairman) presiding.
    Members present: Representatives Gillmor, Buyer, Otter, 
Barton (ex officio), Solis, and Capps.
    Staff present: Michael Abraham, legislative clerk; Jerry 
Couri, policy coordinator; Mark Menezes, majority counsel; 
Michael Abraham, legislative clerk; and Richard Frandsen, 
minority counsel.
    Mr. Gillmor. The subcommittee will now come to order.
    I would like to first welcome Mr. Hale and Mr. Hockey of 
the EPA. We are delighted to have you here today.
    And today's hearing focuses on the U.S. EPA's Resource 
Conservation Challenge. This program, which began in 2002, is a 
major national effort to find flexible, yet protective, ways to 
conserve our natural resources. It challenges all Americans, 
whether they be makers of goods, sellers of goods or buyers of 
goods, to prevent pollution and promote recycling and the re-
use of materials and to reduce the use of toxic chemicals and 
to preserve energy and materials.
    EPA estimates that, in 2001, 288 million Americans 
generated almost 230 million tons of municipal solid waste. 
That means that the average person creates 4.4 pounds of waste 
each day, which essentially means that, within 1 month, many of 
us have produced our own weight in trash.
    In addition, EPA believes that industrial, commercial, and 
manufacturing processes produce around 7.6 billion tons of 
waste. Clearly, it takes a serious effort by several parties to 
make meaningful efforts to reduce waste and free up disposal 
capacity.
    Currently, America uses a pollution management system that 
focuses on waste and emission outputs and on their safe 
disposal and control. While this system is designed to control 
waste, it does not emphasize minimizing waste and reducing 
toxins as a way of managing waste as a valuable resource.
    The Resource Conservation Challenge is predicated upon 
successfully coaxing the public and private sector into 
partnerships that see source reduction and waste minimalization 
as circular rather than linear activities.
    The program is particularly interesting for two reasons. 
First, the Resource Conservation Challenge consists of 
voluntary programs and projects that place the end result, not 
the processes involved, as a main focus of the program. This is 
a clear departure from the legal structure and implementation 
that has underpinned environmental law in this country over the 
last 30 years. It should be encouraged if real progress is 
being made.
    With a limited amount of resources that our Federal, State, 
local, and private sectors have to address societal problems, 
it only makes sense that we find more cost-effective ways to 
achieve greater environmental protection.
    In addition, the Resource Conservation Challenge is built 
on creating smarter partnerships, whether it is educational, 
research, or outreach in a community, or efforts to reduce 
certain wastes. Efforts such as these--flexible, practical, and 
innovative--are the engines of progress. They are making 
environmental programs better, improving the quality of life, 
preserving the beauty and the use of our environment for our 
families and others. We should not only understand the impact 
they are making, but we must also provide them with a helping 
hand and with tools to encourage performance and innovation.
    I believe that honesty, respect, responsibility and 
accountability must be the cornerstones of a new partnership 
between Federal programs and State and local Government. With 
these steps, we can make dramatic improvements for health, for 
the economy and for the environment.
    So I look forward to our testimony today.
    I would like to recognize the gentlewoman from California, 
Mrs. Capps, for the purpose of an opening.
    Mrs. Capps. I thank you, Mr. Chairman, for calling this 
hearing on a very important topic, and to our guests who are 
here to give witness testimony. I would like to have an opening 
statement.
    As we all know, this country, our country, is far and away 
the largest generator of waste of any nation on earth. 
According to the Environmental Protection Agency, American 
consumers produced 230 million tons of municipal solid waste in 
2001 and, as my colleague has said, this means about 4.4 pounds 
of trash, per day, per individual. Beyond what we produce 
individually, the industrial, commercial, and manufacturing 
industries turn out around 7.6 billion tons of waste each year.
    One of the most effective solutions to this problem, of 
course, is recycling. By using what would otherwise be thrown 
away, recycling eases the burden on landfills and incinerators 
while at the same time saving money, creating jobs and 
protecting the environment. Today, more Governments, 
businesses, and households are recycling and using more 
recycled materials than ever before. That is great news, but we 
can do so much more.
    I was pleased to learn that EPA has initiated the Resource 
Conservation Challenge to help boost recycling rates, and I am 
told this program aims to boost the national recycling rate 
from 30 to at least 35 percent by 2005. This is a goal that was 
introduced during the Clinton Administration, so we have been 
at it for a while.
    According to EPA, our current recycling rate is just over 
30 percent. In 1980, about 10 percent of the municipal solid 
waste stream was diverted to recycling. By 1990, the figure had 
grown to 16 percent. By the end of the Clinton Administration, 
the rate had climbed to 2.6 percent.
    So after years of rapid growth, why has our Nation's 
recycling rate leveled off? That is the question, I think, 
which is an important one and which needs to be answered.
    Mr. Chairman, we need to figure out what we are going to do 
with the other 70 percent of paper, cardboard, glass, metals, 
plastics, rubber, food, yard trimmings and other wastes that 
are still incinerated or buried in landfills each year, 
endangering our Nation's air and water quality. In our search 
for the right answers, I would like to point out two examples 
from Santa Barbara County, part of my district, and as example 
of how, sometimes, the best ideas come from the local 
communities. They achieved a recycling rate of 59 percent in 
2002. They are committed to even greater recycling in the 
coming years through the support of local recycling efforts led 
by the Community Environmental Council and MarBorg Industries. 
These are the two organizations I would like to highlight.
    Today, CEC, the Community Environmental Council, is one of 
the few non-profit organizations in the Nation remaining in the 
recycling business. They established many years ago two full-
time buy-back centers and run collective programs for schools, 
businesses, non-profits, and residential properties.
    MarBorg Industries is also a national leader in recycling 
services. Under the leadership of Mario Borgatello, MarBorg is 
the largest single source of recycling in our county, 
processing 500 tons of material per day, recycling 70 percent 
of all waste that Santa Barbara collects. I think it is 
noteworthy that this is a fifth-generation, family operated 
business in our community that started recycling long before 
there was ever a household word called recycling.
    Recently, MarBorg broke ground--and I was there--on a new 
recycling facility that will divert more waste from our 
county's landfills, putting recycling waste to economically 
productive uses, creating new industries and jobs along the 
way. I stood along the assembly line and watched them as the 
trucks came filled with all kinds of things from 
constructionsites and watched the people sift off different 
ingredients that could be recycled. And the amount that came in 
compared to what was left at the end was stunning to observe. 
It was really an interesting process for me to see.
    It is such a good program, by the way, that the non-profit 
organization that started recycling in our county has given 
over its recycling efforts to this local industry, because they 
have demonstrated such success along this line.
    I commend these two long-time Santa Barbara County 
institutions for recognizing that recycling and re-use is a net 
gain for the local economy and the environment. These practices 
prove what people on our central coast of California have been 
saying for years: What is good for the environment is also good 
for business.
    So I look forward to working with this subcommittee to 
support these efforts and increase waste prevention and 
encourage the public's faith and enthusiasm in recycling. Thank 
you.
    Mr. Gillmor. Thank you.
    The Chair now recognizes the chairman of the full 
committee, Mr. Barton.
    Chairman Barton. Well, thank you, Mr. Chairman.
    I am going to submit my statement for the record.
    [The prepared statement of Hon. Joe Barton follows:]
 Prepared Statement of Hon. Joe Barton, Chairman, Committee on Energy 
                              and Commerce
    Thank you Mr. Chairman for holding this oversight hearing on a very 
important program currently underway at EPA. It is always a good thing 
when we can gather in a hearing setting to tell a positive story of how 
an agency program is producing solid, measurable results.
    So often we get lost in the details about what is still wrong with 
our environment, that we lose perspective on the big picture. We forget 
to highlight the positive areas that exemplify just how far our nation 
has come in the past three decades of environmental policy. The program 
that is the subject of today's hearing is just one example of the 
progress we have made. It encompasses many solid ideas and innovative 
strategies that I believe can work when addressing environmental 
protection such as energy conservation and product stewardship.
    With all of this progress, I believe our environmental programs 
still face two challenges. First, we must be smarter. We must improve 
and modernize our programs so that they are based on sound science and 
sound economics. At the same time we need a new focus on partnership. 
To often we rely on federal government to solve our problems. We must 
understand where the real energy of practical and innovative thinking 
is. State and local efforts, as well as efforts within industry, are 
the engines of progress. They are making environmental programs better, 
improving the quality of life, and preserving the beauty and uses of 
our environment for ourselves and our families. The Resource 
Conservation Challenge addresses these issues head on and, as we will 
find out today, the early indications are that it is producing 
significant results.
    The RCC is built on the idea of partnership. It is a major cross-
agency initiative that identifies and uses innovative, flexible, and 
protective ways to conserve natural resources. Different types of RCC 
partnerships exist between private entities and the government. These 
partnerships save energy, reduce greenhouse gases, create jobs, and 
grow the economy, all resulting in better protection of human health 
and the environment.
    This Committee, and indeed the House, has passed legislation that 
encompasses many of the ideas in this program in the yet-to-be-enacted 
H.R. 6 conference report, still hung up in the Senate. By promoting 
efficiency and conservation, the energy bill offers financial 
incentives for renewable energy companies and provides leadership in 
energy conservation by establishing new mandatory efficiency 
requirements for federal buildings and efficiency standards and product 
labeling for large household appliances. It is my sincere hope that 
both the measures contained in HR 6 and the ideas and strategies being 
implemented in this program will yield further results for our nation's 
energy and environmental policy.
    I look forward to hearing from the witnesses and thank you again 
for holding this hearing.

    Chairman Barton. I want to welcome our witness, with his 
assistant, to the committee.
    It is good to know that the EPA is working on a number of 
programs on a voluntary basis that appear to be being met with 
a very positive reaction out in the public. I want to commend 
the gentleman for holding the program. I am going to yield on 
any questions, but I am going to stay and listen for some time, 
so I yield back.
    Mr. Gillmor. Thank you very much, Mr. Chairman.
    The gentlewoman from California, Ms. Solis. We are well 
represented by Californians today.
    Ms. Solis. Thank you, Mr. Chairman.
    Thank you for the opportunity to speak before our witnesses 
and also have the chance to hear from them.
    I want to thank Mr. Hale and Mr. Hockey for coming today.
    Before we get started on the discussion of recycling, I do 
want to mention that I am extremely displeased and disappointed 
that the subcommittee has still not talked about the State 
Revolving Loan Fund, the lead in drinking water, and interstate 
waste, just a few important subcommittee items that I think we 
should be really looking at and focusing on.
    The refusal of the subcommittee to take action on these 
issues has had a direct impact on some of my constituents, and 
I will give you an example. If we were to authorize the State 
Revolving Loan Fund in California, we could be eligible for up 
to $15 million per year. And $15 million per year for the 
State, like many States that are struggling with their budgets, 
would greatly help to guarantee clean water and make sure that 
it is available for all Californians.
    Recycling is an important issue in my community, and 
something that everyone, from individuals to industry, could 
benefit from. Industry is increasingly dependent on recycling. 
Sixty-seven percent of the steel industry uses scrap steel; 42 
percent of the aluminum industry is fed by scrap aluminum; and 
38 percent of the paper industry is fed by secondary fiber.
    Mr. Chairman, 25,000 jobs could be created in California's 
manufacturing sector. In fact, we lost about 20,000 jobs in 
California, and 25,000 could be created in sorting and 
processing from the strengthening of the recycling market, not 
to mention the benefits to the environment and the public 
health from recycling.
    In my district alone, we have five operating landfills, and 
one that is closed. The sites have different effects on the 
businesses there and the surrounding communities, and a number 
of sites nationwide are in residential areas. Some of these 
landfills are also situated very closely to households. 
Recycling, putting less waste in these landfills, could make a 
big difference in the quality of life and public health for 
working families that live in my community.
    Despite the benefits, though, it seems that this country is 
moving backward. In 2002, recycling of beverage containers 
dropped from 37 percent to nearly 20 percent from what it was 
in 1992. And in California, our State has failed to meet its 
goal of reducing, by 50 percent, waste sent to landfills for 
the third consecutive year. This year was the first time since 
1989 the amount of waste being diverted from landfills in 
California actually decreased.
    It is my understanding that EPA is failing to meet its own 
national recycling goal of 35 percent. This leads me to a 
question to ask the EPA and, particularly this program, the 
Challenge program. While I respect voluntary programs that 
work, I am concerned that voluntary measures and partnerships 
are not the only steps that EPA should be promoting.
    Mr. Hale, I would like to hear, when you have a chance, you 
give us some concrete steps that the program is taking to 
achieve national recycling goals. I would also like to hear 
about the concrete steps that you are taking to ensure that 
appropriate standards for recycling are met.
    I also hope, Mr. Chairman, that in the future, our 
subcommittee will be able to begin the discussion on the 
Revolving Loan Fund, lead, interstate waste, and all of the 
other issues that we need to be more focused on.
    Thank you. I yield back my time.
    Mr. Gillmor. The gentlewoman yields back.
    The gentleman from Idaho, Mr. Otter.
    Mr. Otter. Thank you, Mr. Chairman.
    Mr. Chairman, I think we do have a lot to celebrate here, 
unlike the two gentlewomen from California.
    We have had a lot more success in Idaho because, perhaps, I 
guess maybe we care a lot more about Idaho than--and we do not 
need the Federal Government coming and telling us at every turn 
and every corner exactly how to keep our State clean. In fact, 
we would like to invite less involvement from outside the State 
from time to time than we get.
    But we do have something to celebrate here today, and I 
think that the Resource Conservation Challenge has been very 
successful. In fact, so successful that I think we ought to 
move it up another step. There has been lots of occasions in 
Idaho where, if a person were to uncover a situation which was 
problematic, if reported during the late 1990's to the EPA, 
they simply did not report. They simply did not--in fact, 
covered it up just as quickly as they could and made sure that 
nobody, no official was ever notified of it, because they knew 
if they reported it to the EPA, there would be hell to pay. Not 
only would they probably lose some private property rights, not 
only would they probably end up with some sort of a mini-
Superfund site, but in fact, they would probably be fined 
themselves and end up with some tremendous liabilities, even 
though it was not occasioned by themselves.
    So I think having an Environmental Protection Agency that 
encourages a clean environment and leads people to make the 
right decisions is much more important than the heavy hand that 
we have seen in the past. Putting the fist of Government into 
the glove of courtesy, like the Clinton Administration did, 
especially in the Pacific Northwest, set the program back much 
further than this program has been set back in the last 2 
years.
    So I congratulate the EPA on the efforts that they have 
made thus far, and I encourage them to go forward. In fact, let 
us move on up the scale and work the same way on a voluntary 
basis with some of our larger industries.
    Thank you, Mr. Chairman. I yield back.
    [Additional statement submitted for the record follows:]
Prepared Statement of Hon. John Sullivan, a Representative in Congress 
                       from the State of Oklahoma
    Thank you Mr. Chairman, I appreciate your calling this hearing to 
consider the current effectiveness of the EPA's Resource Conservation 
Challenge program. As a member of this Subcommittee, I consider this 
hearing to be a very important part of acknowledging the 
accomplishments and addressing the future plan of the Resource 
Conservation Challenge (RCC).
    Today, we will look at the existing and developing voluntary 
partnerships of the RCC. These partnerships have been tasked with 
providing smarter, faster, voluntary solutions that help to safeguard 
our environment. We will also examine the success of the program thus 
far and help chart the future of the RCC as they look for new 
innovative ways to protect our environment through the development of 
voluntary partnerships with businesses, other governments and non-
government organizations.
    I believe that maintaining the flexibility of the RCC is key to 
ensuring the success of the program to protect our national resources 
and find solutions to specific national environmental problems.
    I look forward to hearing the EPA's recommendations on each of the 
RCC programs and the testimony from our distinguished panel here today. 
I yield back the balance of my time

    Mr. Gillmor. That concludes opening statements.

  STATEMENT OF MATTHEW HALE, DEPUTY DIRECTOR, OFFICE OF SOLID 
  WASTE; ACCOMPANIED BY DAVID S. HOCKEY, DIRECTOR OF RESOURCE 
  CONSERVATION CHALLENGE, U.S. ENVIRONMENTAL PROTECTION AGENCY

    Mr. Gillmor. I do not know which of you two gentlemen 
wishes to go first.
    Mr. Hale?
    Mr. Hale. Yes, thank you. And I will be making the only 
formal statement here at this point.
    I want to thank the Members of the committee for inviting 
me to today's hearing to discuss the Resource Conservation 
Challenge. I am Matt Hale, Deputy Director of the Office of 
Solid Waste, and with me is David Hockey, Director of the 
Resource Conservation Challenge. I have submitted written 
testimony that provides many details about the purpose, 
progress, and benefits of the RCC. We also have a PowerPoint 
presentation here for you on the video screens.
    During the next few minutes, I would like to give you an 
overview of the RCC and how this agency program significantly 
advances the mission of the Resource Conservation and Recovery 
Act and the resource conservation goals of other statutes. At 
the suggestion of committee staff, I have brought a PowerPoint 
presentation, which I mentioned, and I hope it will help give 
you a pictorial understanding of the program.
    For RCRA, we have a vision and a set of goals that, along 
with our State partners, we believe makes up the future of 
RCRA. Two of these goals directly address resource 
conservation. First, promote recycling and re-use. Second, 
reduce releases of hazardous chemicals. The RCC is one key 
program to help us reach these goals.
    The problem we face is how to safely manage wastes while 
promoting, to the greatest extent practicable, resource 
conservation. Virgin materials, when processed, produce both 
positive outcomes and negative outcomes. They produce both 
products and pollution. In RCRA, both of these can lead to 
waste products at the end of their initial or intended life and 
pollution as it is released to the land.
    In the last 20 years, we have put in place a cradle-to-
grave safe-management program for RCRA, mainly focusing on the 
thin, red slice of the pie representing hazardous waste. The 
chart there represents the 1.6 billion tons of waste we talked 
about, with the red slice at the top being hazardous waste. As 
you can see, there is a lot more waste to manage in RCRA, both 
when it is disposed of and as a potential resource.
    Although we started down the road to resource conservation, 
it is still considered by many as the unfinished business of 
RCRA. The path to finishing the business lies in promoting 
pollution prevention and the three Rs--re-use, reduce, 
recycle--preventing priority chemicals from being released into 
the environment and conserving energy and materials.
    To accomplish this, we must maintain the cradle-to-grave 
system that is protecting and cleaning up our land. This 
approach, however, is inefficient when considering resource 
conservation, but it is and will always be the critical 
foundation to a cradle-to-cradle system of efficient materials 
management.
    We have several illustrations of the concept, but in a 
cradle-to-cradle system, products and wastes hold considerable 
value as a resource, not as a burden. Virgin raw material 
inputs are minimized. Environmentally friendly products are 
carefully designed. Efficient processes are put in place. Re-
use and recycling are maximized, and waste that cannot be 
prevented is safely managed. This is why we have invested in 
the Resource Conservation Challenge, to help us reach our 
vision of a cradle-to-cradle approach to materials management.
    As mentioned earlier, the RCC is a program to bring agency 
alignment and focus to three goals: prevent pollution and 
promote recycling and re-use of materials; reduce the use of 
priority chemicals at all life-cycle stages; and increase 
energy and materials conservation.
    How does the Resource Conservation Challenge do this? 
Within the agency and our region, the RCC championed six 
program elements: product stewardship; priority chemical 
reduction; ``greening'' the Government; beneficial use of 
materials; energy conservation; and environmentally friendly 
design. Under the RCC, our approach is largely to form 
voluntary partnerships with key stakeholders. However, an 
approach can also include guidance, standards, and regulations 
as necessary.
    We have worked to align our resources and projects to 
support these program elements. The benefits of this investment 
in the unfinished business of resource conservation is paying 
off with measurable environmental benefits that go well beyond 
conserving virgin resources. For example, RCC projects are 
protecting human health and the environment, saving energy, 
reducing greenhouse gases, creating jobs, and growing our 
economy.
    My written testimony and this table highlight several of 
the key projects delivering benefits in each program element.
    As has been recognized inside and outside the agency, the 
Resource Conservation Challenge makes sense. To help provide 
the next steps, we are in the process of developing strategic 
plans with our stakeholders. These 3 to 5 year plans for the 
Resource Conservation Challenge will identify new targets and 
measures that will be incorporated into the agency's overall 
2003 to 2008 strategic plan. After incorporating the input of 
our RCRA stakeholders, we expect to release these plans next 
fall--or this fall.
    I want to thank you for your time and will be happy to 
answer any questions you may have. Thank you.
    [The prepared statement of Matthew Hale follows:]
 Prepared Statement of Matthew Hale, Deputy Office Director, Office of 
           Solid Waste, U.S. Environmental Protection Agency
                              introduction
    Mr. Chairman and members of the Subcommittee, thank you for 
inviting me to appear today to discuss EPA's Resource Conservation 
Challenge. When EPA launched the Resource Conservation Challenge in 
September of 2002, we set in motion a plan of action with a clear 
goal--to infuse new energy into one of the country's original waste 
management strategies. As the Agency stated nearly 2 years ago, the 
idea is to put the ``Conservation and Recovery'' back into the Resource 
Conservation and Recovery Act (RCRA). EPA believes this approach was 
clearly expected by Congress in its intent for RCRA to reverse the 
trend of ``millions of tons of recoverable material which could be used 
[being] needlessly buried each year.'' What better way to manage wastes 
effectively than by eliminating them; by designing products and 
processes that minimize waste; by collecting waste products and reusing 
them; and by using all input materials more efficiently.
    At its launch, the RCC pulled together many projects underway in 
different EPA offices, all working to conserve our natural resources. 
Today, almost two years later, the RCC has become a national program, 
challenging all of us to: prevent pollution and promote recycling and 
reuse of materials; reduce the use of toxic chemicals; and conserve 
energy and materials. In meeting these challenges, the RCC is helping 
us reach our human health and environmental quality goals in every 
Agency program and in every environmental medium. Resource conservation 
and its benefits can apply to every single business, every single 
institution, and every single family in this country.
    In fiscal year 2003, the House Appropriations Committee Report 
accompanying EPA's appropriation, supported the RCC by saying ``. . . 
The Committee is aware of EPA's initiative to identify opportunities to 
further the goal of resource conservation and recovery while remaining 
true to the mission of ensuring safe and protective waste management 
practices. The Committee supports the initiative and encourages the use 
of Agency funding to implement the necessary policy changes to further 
this important goal.''
  Partnerships that Lead to Results
    The RCC is composed of largely voluntary programs and projects, 
with a recycling and resource conservation focus, that aim toward more 
effective materials management. The RCC supports six program elements:

--Product stewardship (working with all involved in a product's life-
        cycle to reduce its environmental footprint);
--Priority chemical reduction (reducing 31 of the most persistent, 
        bioaccumulative, and toxic chemicals released to our 
        environment);
--``Greening'' the government (improving the government's green 
        procurement and waste reduction programs in line with our 
        statutory and Executive Order commitments);
--Beneficial use of materials (examining and promoting safe use of 
        valuable secondary materials and waste streams);
--Energy conservation (maximizing energy conservation by more effective 
        use of materials); and
--Environmentally friendly design (starting at the product or process 
        design to produce less toxic, more recyclable and reusable 
        products).
    Within each of these program elements, we are developing strategies 
with measurable outcomes, and we're integrating these strategies into 
the Agency's overall Strategic Plan. In doing so, for each RCC program 
element, we are:

--Analyzing materials and waste streams to identify opportunities for 
        resource conservation, while at the same time ensure that these 
        materials do not present a risk to human health and the 
        environment;
--Collecting data and setting measurable targets; and
--Identifying environmental goals linked to health protection, energy 
        savings, or job creation.
    At each step in the process, we're working with partners and 
incorporating their expertise and knowledge to find solutions to 
specific problems and then implementing them.
  RCC Program Elements
  1. Product Stewardship
    For product stewardship, we're working with manufacturers to reduce 
the environmental footprint of their products. This can be done by 
eliminating, as feasible, the toxics contained in those products and by 
designing products to have another useful incarnation (through reuse or 
recycling) after their initial life. For example, one such successful 
approach is being taken in partnership with the electronics industry. 
In electronics, our partnership is encouraging and rewarding greener 
design of electronic products (e.g., reduced toxic content and easier 
to recycle), helping to develop the infrastructure for collection and 
reuse/recycling of discarded electronics, and working with recyclers 
and others to encourage environmentally safe recycling of used 
electronics. In addition, we are partnering with the carpet industry, 
scrap tire groups, and other product sectors to similarly encourage 
greener design (for carpets), greater recovery and reuse and safe 
recycling practices (both carpets and tires).
    As part of the Plug-in to eCycling program, EPA and its partners 
are piloting various options for safe recycling of old electronics. One 
such approach is to share the responsibility for collecting, 
transporting, and recycling old consumer electronics among 
manufacturers, retailers, government agencies, recyclers, and non-
governmental partners. These pilots will help inform decisions and 
approaches to large scale electronics product stewardship programs.
    With regard to one of our biggest municipal waste streams, paper, 
EPA has several partnerships underway that have been helping to reduce, 
reuse, and recycle all types of paper products. The RCC has partnered 
with the American Forest and Paper Association to help reach its goal 
of recovering 55% of the paper consumed in the U.S. by 2012. 
Additionally, through programs and partnerships like WasteWise, 
Greening the Government, and the Green Press Initiative, we're focusing 
on developing markets for paper products produced with post-consumer 
paper as well as paper recovery.
    The growth of e-commerce has brought about waste paper reduction 
benefits, however it has helped generate an increase in paper and 
plastic packaging materials in municipal solid waste systems each year. 
To address this issue, EPA launched the Cradle-to-Cradle Design 
Challenge. In 2003, EPA presented the Cradle-to-Cradle Design Award for 
e-commerce packaging and logistics to student and professional winners. 
As a result of the Design Challenge, a group of packaging industry 
professionals have formed a Sustainable Packaging Coalition to design 
resource conserving packaging and systems.
  2. Reduction of Priority Chemicals
    To reduce the release of the 31 priority chemicals we're taking a 
three tiered approach, closely aligned to our approach for product 
stewardship. First--eliminate, where practical, the chemical from the 
product or process; second--substitute, as available, a less hazardous 
chemical; third--minimize the amount of chemical disposed of and 
maximize recycling. EPA's premier partnership with industry and other 
stakeholders, the National Partnership for Environmental Priorities 
(NPEP), is leading the way and has already received commitments from 29 
facilities members to prevent 684,000 pounds of priority chemical 
releases. This program is key to reaching our GPRA goal of preventing 
an additional 10 percent of priority chemical releases by 2008. In 
2003, (2 years early) we met the goal established in 1996 of achieving 
a 50 percent reduction by 2005. For other priority chemicals, EPA is 
tailoring partnerships to reduce the releases of mercury from 
automobile switches, mercury from dental offices, and early retirement 
of equipment containing PCBs. In response to the continuing health 
risks from chemical spills in schools, EPA is partnering with schools, 
school associations, and states to launch a ``Chemical Cleanout Week'' 
to safely remove and dispose of excess laboratory chemicals.
  3. ``Greening'' the Government
    By ``greening'' the government, we're harnessing the tremendous 
buying power of the United States Government to influence what products 
and services are produced. It is our goal that the U.S. Government 
serve as a model of stewardship to the public and private industry by 
incorporating recycling and waste prevention practices in federal 
agencies' daily operations. The ``greening'' application is very broad, 
from purchasing products and services that minimize environmental 
burdens to promoting safe, cost effective, energy efficient and 
environmentally-sound products.
    RCRA, the Pollution Prevention Act, and several Executive Orders, 
guide us in enhancing recycling activities and give preference in 
purchasing products with recycled content, environmentally preferable 
products, and biobased content products. The Executive Orders also 
mandate the evaluation of compliance by the federal facilities to 
Section 6002 of RCRA. EPA has built several key programs to ``green'' 
the government (i.e., Environmentally Preferable Purchasing (EPP), 
Comprehensive Procurement Guidelines (CPG), Green Buildings 
Partnerships, GreenScapes, and WasteWise) and established partnerships, 
provided outreach, training and technical assistance, and developed 
tools for EPA and others to use or to build on.
    The future of greening will be in our ability to make sure federal 
funds spent through contracts, grants, leases, corporative agreements, 
and inter-agency agreements are clear with respect to green purchasing 
expectations. As part of the RCC we will be working with our federal 
partners in identifying aggressive federal recycling and waste 
diversion goals to complement accomplishments already made (e.g., in 
2001, 90 percent of the offices in the six largest procuring agencies 
had recycling programs in place.) Additionally, EPA is working with 
other federal agencies, under E.O. 12148, to eliminate priority 
chemicals where possible and reduce toxic chemical releases by 40 
percent by December 2006.
  4. Beneficial Use of Materials
    The beneficial use of wastes or reuse of secondary materials 
promotes efficient materials management. Instead of wastes being 
disposed of, they are fed back into different production or other 
processes, thus contributing value and acting as a substitute for 
primary raw materials. Waste recovery is undertaken to avoid waste 
disposal, to save virgin resources, and to extract value from otherwise 
discarded materials.
    Under the RCC, we are building partnerships that identify goals and 
measures to spur safe and beneficial use of secondary materials. The 
Coal Combustion Partnership Program (C2P2), for example, is an 
industry/government partnership to increase the beneficial use of coal 
ash and other coal combustion products and to reduce the amount of 
these materials that are land disposed. EPA estimates that coal-fired 
power plants generate approximately 135 million tons of coal combustion 
products each year. The C2P2 encourages generators and users of coal 
combustion products to increase the use of coal ash in cement and other 
construction products. A significant benefit from this program is that 
every ton of coal ash used in concrete to replace Portland cement 
reduces 0.89 tons of global green house gas emissions. Under the RCC, 
C2P2 partners have committed:

 To increase the environmentally safe use of coal combustion products 
        in concrete from 14 million metric tons in 2001 to 20 million 
        metric tons by 2010, a 43 percent increase; and
 To increase the environmentally safe beneficial use of coal 
        combustion products from 30 percent to 45 percent by 2008, by 
        volume about a 30 percent increase.
    Another example is our RCC tire partnership. There are at least 300 
million scrap tires in stockpiles in the U.S. today, with 281 new 
million scrap tires generated in 2001 alone. We also estimate that 
markets now exist for approximately 78 percent of scrap tires. A 
partnership between EPA and scrap tire stakeholders is working to meet 
two 2008 goals for the safe beneficial use of scrap tires:

 To divert 85 percent of newly generated scrap tires to reuse, 
        recycling, and energy recovery; and
 To reduce the number of existing tire stockpiles by 55 percent.
    As the RCC unfolds, EPA will put in place additional goals and 
measures.
    Each of these programs will help solidify a critical component in 
promoting beneficial use, reuse, and recycling of wastes--market 
development. Our approach involves working with consumers to generate 
demand for recycled products, working with industry to adjust its 
perspective so wastes are viewed as products.
  5. Energy Conservation
    The RCC is focusing its energy conservation efforts on identifying 
opportunities to increase the amount of energy conserved or recovered 
from activities associated with the production and management of waste 
materials. This includes working with industrial sectors to identify 
practices that will conserve energy through the reduction or 
elimination of waste byproducts, the identification of secondary 
markets for waste byproducts, and the expansion of energy recovery 
processes to extract the energy value of waste byproducts.
    Our near term focus is to enhance energy conservation associated 
with waste materials involves the measurement and expansion of current 
activities. For example, we're investigating additional hazardous 
wastes that are comparable to commercially available fuels. Congress 
also supported this approach in Committee report language on EPA's 
fiscal year 2004 appropriations bill: ``The Committee also supports 
EPA's work to examine the effectiveness of the current comparable fuel 
program to supplement domestic energy sources with industrial 
materials, and encourages EPA to promulgate a rule in fiscal year 2004 
allowing additional industrial materials to be safely used as fuels.'' 
This is consistent with Congress' intent under RCRA that solid waste 
represents a potential source of fuel that can be converted into energy 
as a means of reducing our dependence on other energy sources, 
including petroleum products, natural gas, nuclear and hydroelectric 
generation.
    We are also looking at further expanding our WasteWise program, 
through which partners conserve energy by using fewer raw materials and 
by recycling materials in manufacturing processes. In 2002, WasteWise 
partners identified 3.5 million tons of their waste reduction efforts 
as directly attributable to their WasteWise membership. This level of 
waste reduction translates into a reduction of greenhouse gas emissions 
by 2.4 million tons of carbon equivalent. Finally, we are looking at 
how to further encourage the use of landfill gas for energy. We want to 
expand on efforts like the one at Rutgers University's Eco-complex, 
which proves that energy can be produced from landfill gases and put to 
beneficial use (in this case, by using the fuel in closed loop 
aquaponic fish and plant production). By focusing on energy as a 
strategic element, we are providing a new forum to highlight the 
environmental and energy savings associated with waste avoidance, 
recycling or reuse, and recovery.
  6. Environmentally Friendly Design
    In the RCC's final program element, our goal is to promote the 
design and/or redesign of products and processes to minimize their 
environmental impact. Through tools development, outreach, and 
incentives, stakeholders are transforming the design of their products.
    One partnership working toward this goal is the Formulator 
Initiative, which gives companies the opportunity to partner with EPA's 
Design for the Environment (DfE) program to design or reformulate 
products to have a more positive environmental and human health 
profile. We have developed a prototype for the cleaning product 
industry. To enhance outreach, we've brought together leaders in the 
commercial product supply chain, product designers, and EPA's DfE and 
Green Chemistry experts to steer commercial products toward use of 
greener materials and easy disassembly. Also, through a partnership 
with the Industrial Designers Society of America (IDSA), we have 
printed and distributed the Okala Ecological Design course guide. In 
partnership with various companies and industrial design and green 
chemistry trade groups, EPA is planning to educate and train product 
designers to use environmental information in design decisions, and to 
bridge risk information gaps between chemicals and materials for 
commercial product designers.
                               conclusion
    The RCC is unique in its ability to bring together resource 
conservation projects and stakeholders, set a focus and goals for key 
products, commodities, or wastes, and recognize achievements that 
benefit our environment. In the fall of this year, we expect to release 
strategic plans for each of the six program elements. These strategies 
will identify a direction for the next five years in resource 
conservation: what we need to focus on (e.g., paper, tires, mercury in 
products); what partnerships we need to build; what measures we will 
use to track success (e.g., percent recovery, pounds recycled); and 
what goals will produce environmental benefits.
    The Resource Conservation Challenge isn't mandatory, it's not 
required by rule or regulation; it is a largely voluntary effort driven 
by the benefits derived by the participants. In some cases, 
participation is driven because resource conservation will pay for 
itself, as with many kinds of energy efficiency. In some cases, 
participants are involved because they've discovered an innovative way 
to reuse a waste stream or perhaps because a particular waste stream 
poses unique and difficult problems for traditional waste management. 
But in all cases, partners join because resource conservation is 
critically important to our environmental and our economic future.

    Mr. Gillmor. Thank you very much, Mr. Hale.
    Let me begin. A year ago EPA published a document, called 
Beyond RCRA, and the document tried to project what the 
environmental picture would be of solid and hazardous waste in 
the country in 20 years. One theory advanced in the report was 
that economic incentives, voluntary measures, and regulatory 
controls would lead to most waste being re-used and recycled 
and the landfills would become obsolete or nearly so.
    From your experience with the Resource Conservation 
Challenge, is that a viable outcome in the next 20 years? And 
if so, why?
    Mr. Hale. I think, in the 2020 Vision Report, we call it, 
we were trying to envision the future, and we were trying to 
set a direction that we hoped and we expected society would 
move in. I think it is reasonable to expect significant amounts 
of reduction in waste. I think it is very reasonable to expect 
enormously more efficient use of secondary materials.
    So whether the vision is perfectly achieved or not is 
beyond our ability to project, but I think the general 
direction and the general concepts are, in fact, realistic.
    Mr. Gillmor. As a follow-up to that, as science and 
technology advances, there are some people who predict that our 
environmental future will see harmful chemicals becoming more 
prevalent, seriously impacting ground water and the Nation's 
food supply.
    How do you respond to those concerns? And what does the 
Resource Conservation Challenge lead you to believe may be 
obstacles to that kind of future environmental protection?
    Mr. Hale. Well, I think we definitely have--we certainly 
see in society and in industrial society, these issues are 
mentioned within the 2020 report, some of the challenges we 
face--increased new chemicals being developed, toxicity of 
chemicals better understood, resource depletion. Those are 
concerns or trends that are identified within the report 
itself.
    And I think we need a concerted effort on both fronts of a 
cooperative approach to reach an industrial system that more 
effectively uses and re-uses resources, but at the same time, I 
think we need a strong regulatory structure, both at the 
national and the State level, to deal with some of the toxic 
products of our industrial society.
    Mr. Gillmor. Since many of the programs in the Resource 
Conservation Challenge are voluntary in nature, what has your 
experience been with participating industries regarding our 
capabilities and incentives to reduce waste in the processing 
and the use of material resources?
    Mr. Hale. I think our experience has been good. We have had 
certainly a number of years at EPA of developing voluntary 
partnerships with outside stakeholders, whether it is industry 
or local communities or nongovernmental organizations. I think, 
on a number of the bigger issues, materials issues that we are 
facing in society today, whether it is electronics or some of 
the larger waste streams, I think we see on the industry side a 
significant number of incentives on their part to join in 
partnerships. And I think as a whole, we have found a receptive 
audience.
    Mr. Gillmor. The Resource Conservation Challenge has at its 
core a focus on a more cradle-to-cradle approach rather than 
RCRA's traditional cradle-to-grave framework. The concept is 
incorporated into EPA's recent proposal for regulatory changes 
for certain hazardous waste recycling activities currently 
under review.
    This proposal has come under sharp criticism, alleging that 
it would, for one, allow 3 billion pounds of hazardous waste to 
escape Federal regulation by narrowing the definition of solid 
waste under RCRA.
    How do you counter that statement and yet still further the 
cradle-to-cradle solution that you advocate in the program?
    Mr. Hale. Well, I think there are two parts to that. I 
think within--well, I think, actually, the first point is that, 
if you look at the pie chart, we show the hazardous waste piece 
of the pie is a very small piece of the pie that the Resource 
Conservation Challenge is dealing with.
    But within that hazardous waste piece of the pie, I think 
we have found, over the last decade, there are waste streams or 
secondary material streams where we see there is a disincentive 
to re-use within the industry that generated it because of 
regulatory concerns.
    Another point I think that we need to keep in mind in 
talking about that specific rule is that what we are really 
doing is defining a jurisdiction, the jurisdictional scope of 
our authority as has been interpreted by the courts in a number 
of recent decisions.
    So I think, on the one hand, we do see benefits in terms of 
recycling or re-using a segment of the stream that is 
considered hazardous waste under current regulations, and at 
the same time, we do think we are following court decisions on 
the scope of our authority. But I do point out, that is a 
proposal, and we have a number of different comments suggesting 
that we should have taken an approach in one direction or 
another, so we will need to look at those carefully.
    Mr. Gillmor. Thank you.
    The gentlewoman from California, the ranking member of the 
subcommittee, Ms. Solis.
    Ms. Solis. Thank you, Mr. Chairman.
    Mr. Hale, I know I probably should not be directing these 
questions to you, but we have not had the opportunity to speak 
to the new director for EPA. But in any event, I would like to 
ask you these questions, and perhaps, we can get a response at 
some point from the agency.
    The first is a letter that was sent by Ranking Member 
Dingell and myself that was issued February 5 about 
contamination from military munitions. I received a partial 
response back on April 20, but have heard nothing since.
    There is a second letter that Ranking Member Dingell and I 
sent on March 24 about a listing of Department of Defense 
installations on the Superfund National Priority List. We have 
heard nothing about that letter.
    Finally, myself and Ranking Member Dingell and seven U.S. 
senators issued a letter on April 2 to the administrator, Mr. 
Leavitt, seeking information about the Superfund program and 
have heard nothing. I would hope that you might be able to 
inform your higher-ups about a response that we might be able 
to expect soon.
    Mr. Hale. Yes. Thank you. I will definitely bring that 
message back, and we will do all we can to get those letters to 
you, those responses to you.
    Ms. Solis. One of the concerns I have is, looking over your 
Resource Conservation Challenge budget numbers, I wanted to ask 
you a few questions. For fiscal year 2003, that was enacted at 
$14.7 million, and for fiscal year 2004, the President's budget 
request was for $16.5 million. And yet for fiscal year 2004, 
the actual enacted amount was $10.8 million. Is that correct?
    Mr. Hale. Yes.
    Ms. Solis. So if that is correct, then my colleagues funded 
the program at 34 percent less than the President actually 
requested. Is that correct?
    Mr. Hale. That is where the funding ended up once, within 
EPA, we had developed our operating plan, yes.
    Ms. Solis. And because of that cut, did that force you then 
to eliminate the Recycling Call Center which was funded at 
$700,000? And an annual meeting, I believe, that you would hold 
with stakeholders, recycling officials, that was funded at 
about approximately $500,000?
    Mr. Hale. Our overall budget within the Office of Solid 
Waste has gone down significantly, at least our overall budget 
has gone down, and it is particularly significant for us, 
because we have protected salaries and staff. That has meant 
that, within the Office of Solid Waste, we have had a 
significant decrease in money, and so we have needed to focus 
our efforts in a more targeted way. And we have put things like 
the call center--we are moving to more Internet-based. So the 
net result of our budget situation is that the items that you 
have talked about are where we are cutting back on.
    Ms. Solis. It sounds to me, though, that in an attempt to 
try to get people to move on cleaning up, recycling in a 
voluntary mode, you would probably need more of an effort to do 
better outreach and better targeted outreach, particularly at 
industries that might be smaller, mom and pop, for example, 
that are not Internet astute and maybe, at most, have a 
telephone and a fax. How do you plan on communicating with 
those individuals?
    Mr. Hale. Yes. An important part of the Resource 
Conservation Challenge is outreach. The call center really 
focuses on regulatory, people calling up with regulatory 
questions for the most part.
    But an important part of the RCC will be outreach. So we 
are working with broad national groups. We have policy 
approaches with schools. For example, we had a big event in San 
Diego last spring making a difference, focusing on 
schoolchildren.
    So outreach is a key part of the Resource Conservation 
Challenge. The Internet actually is an important tool for that, 
but using associations is one of the approaches that we are 
using as well.
    Ms. Solis. I just wanted to ask you, what type of outreach 
do you do in different types of geographically diverse areas 
where you might find a lot of small businesses that do not 
speak predominantly English, what kind of outreach do you do 
there?
    Mr. Hale. For example, we have been working with LULAC, the 
Hispanic American organization focusing on Latinos in the 
United States on a number of different areas. This last year we 
had a program with them dealing with recycling of motor oil. 
And our next program with them is going to be having to do with 
household hazardous waste.
    We do TV spots. We had Eric Estrada do a TV spot in Spanish 
advertising the used oil program. So that is an example of 
programs.
    We also work with Native American associations, the 
National Tribal Environmental Coalition, for example. So a 
number of those groups we particularly target. African-American 
groups we target as well.
    Ms. Solis. What about the Asian community?
    Mr. Hale. Again, within the Asian community, for example, 
in areas where there is a strong--industrial areas where there 
is a strong representation of the Asian community, dry 
cleaning, for example, we will have material that is written in 
Vietnamese or the language specifically targeted at them.
    Ms. Solis. Could we get a budget as to exactly how much is 
apportioned to LULAC and what kind of groups you are working 
with? If there is a set figure that is allocated, is there a 
bid process for grants, and who is that open to?
    Mr. Hale. Yes. We will get back to you on that.
    Ms. Solis. Thank you.
    Mr. Gillmor. The gentlewoman's time has expired, but we do 
plan to do a second round.
    The gentleman from Idaho, Mr. Otter.
    Mr. Otter. Thank you, Mr. Chairman.
    Thank you, once again, for this hearing, giving us the 
opportunity to see how, in the face of a major problem, a major 
Nationwide problem, that volunteerism can work, if encouraged 
in the right direction, can work probably much better than some 
sort of authoritarianism. Let me ask a question about the EPA 
itself.
    Does the EPA office that you work out of, does it have a 
recycling program like I know a lot of offices have?
    Mr. Hale. Yes, we do.
    Mr. Otter. What is your percentage of success with that? 
How much of your waste that is coming out of the office, the 
paper, whatever you generate, how much of that is recycled?
    Mr. Hale. I would have to go back and check our statistics. 
I would have to get back to you.
    Mr. Otter. Would it be above the national average that you 
show in this little book?
    Mr. Hale. I will have to check back with you on that.
    Mr. Otter. I would assume that it is. It has been my 
experience, at least, in offices.
    Mr. Hale. I would hope so.
    Mr. Otter. My follow-up question to that has to do with, 
can you tell me what the punishment is to an employee if they 
are caught doing something with their waste, other than 
recycling it? Do they get fired?
    Mr. Hale. At EPA?
    Mr. Otter. Yes.
    Mr. Hale. It is usually social ostracism.
    Mr. Otter. I understand. In other words, the encouragement 
is focused on voluntarily doing the right thing, rather than 
the punishment being focused on, am I correct?
    Mr. Hale. Yes, yes.
    Mr. Otter. So I say, I guess, again, and I will yield back, 
Mr. Chairman, but mostly, I just want to make the point that I 
think probably one of the most successful programs of the EPA 
to date has been this program that focuses on getting people to 
do the right thing, educating them to do the right thing and 
then follow up.
    I think everybody is proud of this country and would like 
to see it--and part of that pride is in how this country looks. 
I would also reiterate that I think the State of Idaho does a 
good job on its own, but we appreciate whatever encouragement 
we get from the EPA.
    Mr. Chairman, I yield back. Thank you.
    Mr. Gillmor. I thank the gentleman.
    The gentlewoman from California, Mrs. Capps.
    Mrs. Capps. Thank you. Before I begin, I want to 
congratulate our colleague from Idaho on such high standards 
and maybe suggest that, the next time he brings his horses to 
ride on our California back country, he could bring us some of 
those ideas that have worked so well in Idaho.
    Mr. Otter. I will do my best.
    Mrs. Capps. But Mr. Chairman, seriously--well, that was 
serious, too. We like to share ideas. I think this is one area 
where best practices go a long way. At least they are showing 
that to be the case in our community.
    But Mr. Chairman, a 2002 National Post Consumer Plastics 
Recycling report concluded that recycling is no longer a top-
of-mind issue for consumers and contributes this effect to low 
participation and capture rates for recycling rates.
    Whatever else we do, I think it is important to focus on, 
if we call it being successful so far or not being successful 
enough, we certainly do have standards, national standards in 
the area of plastics, for example, that we clearly have not 
met. So there is a lot more work to do, and that is kind of 
what I want to talk about.
    I am going to use this moment, Mr. Chairman, because I have 
had a question from my own curbside recycling on my street in 
my community that I want to ask, and I figure I might as well 
use these experts here to answer my question. It is a way of 
focusing on home and close-to-home kinds of recycling efforts. 
Many of these are concentrated on two initials that we get very 
familiar with, the PET, polyethylene terephthalate, or whatever 
that is, and also the HDPE, the high-density polyethylene. And 
all of us who try to do recycling in our, whatever, community 
or at work, in our homes, get familiar with those labels.
    Now, and the HDPE is the topic of my question, because that 
is generally found on milk bottles and other household 
containers, laundry detergent and so forth. I am thinking of 
the plastic bags, when I get my groceries at one of the big 
stores in my community, the HDPE is 4, usually. My recycling 
center and I have been bragging about, my company will only 
take 1 and 2. So I have to take those bags back to the store. 
They have committed to recycling them, which I commend them 
for, but, you know, it is just that little extra step. And so 
does my newspaper, including the L.A. Times, it comes wrapped 
in HDPE 4.
    What would it take, and this will help me personally, but I 
will also work on your behalf, what would it take to get these 
widely used plastic bags and packaging down to a 1 and a 2 on a 
regular basis so I can put those out on my curbside like I do 
everything else?
    Mr. Hale. I would have to get back to you on a specific 
answer and talk to our plastics recycling experts. Certainly, 
plastic recycling is one of the areas where we have the biggest 
challenges.
    Mrs. Capps. Do you, Mr. Hockey, have any information for 
me?
    Mr. Hockey. Some of the things that we have been talking to 
people about is market development, and some of the market 
development is regional; things that are being collected in one 
region are being collected there because there is a market for 
that type of material in that area.
    Mrs. Capps. But what is going to incentivize a place like 
Ralph's or Safeway to get plastic at 1 and 2? Why are they not 
doing it now? What can we do to raise that or encourage that to 
happen?
    Mr. Hockey. I think it is something that we can work with 
the folks who are running shopping centers and----
    Mrs. Capps. But get more specific. What do you suggest? 
Fining them if they don't or rewarding them if they do? What is 
a way we can do that?
    Mr. Hale. One thing that we have been doing, just by 
analogy, we have been doing within the electronics arena is 
working with some of the retailers such as Staples, et cetera, 
and we are finding at least a number of them, either through 
peer pressure or other concerns, are actually engaged or taking 
on sort of take-back programs from consumers which might not be 
in their very narrowest economic self-interests.
    I think David's point was, I think we need to work at the 
sort of shopping-center-association level, the grocery-store-
association level, the Safeways and Giants of the world at an 
industry level. And I think it is possible to work with them 
and get them to agree it is, in fact, in their broader self 
interests.
    Mrs. Capps. If I could suggest, Mr. Chairman, these are 
very competitive market-driven companies, newspapers and 
grocery store retailers. I would urge that this subcommittee 
get busy on putting some teeth in this. If we are really 
serious about this being a national interest and that we do not 
want to see landfills everywhere in our country, that we work 
on developing some very strong incentives.
    I would rather see it be positive than be punitive, 
frankly. I think we could go some way in this Congress to raise 
that standard so that it would be an expectation and required, 
but there would be some motivation for doing that.
    I yield back.
    Mr. Gillmor. I want to go to the issue of recycling.
    As you know, EPA estimates that, in 2001, the U.S. 
recycling and re-use industry supported more than 56,000 
recycling and re-use businesses, employing 1.1 million 
Americans, that grossed $236 billion in annual revenues.
    Is the Resource Conservation Challenge keeping track of the 
various recycling rates, and if not, is there an area within 
the Office of Solid Waste that is keeping track, not only of 
the numbers, but also of the trend in the way that Americans 
are recycling?
    Mr. Hale. We keep track of recycling rates, particularly 
within the municipal solid waste area, the plastic bags and so 
forth, through a report that we put out every year, 
colloquially known as the Franklin Report, but it is a report 
on solid waste generation and recycling. There is also another 
independent report, the bio-cycle report, that counts numbers a 
little bit differently. So there are two very good sources of 
general recycling of--like trends of recycling of municipal 
solid waste. And the bio-cycle report goes a little bit further 
into construction, demolition debris, and other areas.
    Within other areas, as part of the RCC, we are working with 
trade associations and other industry sources, other sources 
for more specialized waste streams called combustion ash, 
foundry sand, tires, categories of waste like that.
    Mr. Gillmor. I would appreciate it, if you have it, if you 
could get us the actual recycling rates for paper, for glass, 
and for aluminum, if you could get that to the staff. Also, how 
much recycling material is being sent overseas for 
reprocessing?
    Mr. Hale. I don't have the figures on what is sent overseas 
for reprocessing, and I think that depends a lot on the 
particular stream you are talking about. So I would have to 
give you the details.
    But certainly, there are certainly commodities, basic 
commodities like scrap metal or paper fiber is an international 
commodity trade that is bought around the world. But we would 
have to look in more detail to get back to you on that.
    Mr. Gillmor. I would appreciate it if you could, because 
this is something we are hearing about, and some of the 
economic strains that it is producing domestically as a result.
    Also, are you examining efforts to address diversion rates 
as opposed to recycling rates?
    Mr. Hale. We are, at least our national goals that we 
currently have in place focus in one way on both. Our 35 
percent is a recycling rate, but we also are looking at 
diversion rates as well.
    Mr. Gillmor. Currently, many materials such as unsold 
newspapers are classified as waste, but they are actually 
destined for re-use or recycling. Beyond RCRA, an argument is 
made that a key component to making an efficient resource 
utilization system work would be to identify materials as waste 
only when they are clearly destined for disposal. This would 
reduce the distinction between waste and re-usable materials.
    Is this question being addressed as one of the challenges, 
and is there still a problem with making this new distinction 
between waste and re-usable material?
    Mr. Hale. I think, when you get to the solid waste world or 
an area like newspapers, we will certainly look into this. But 
I think our interest is that, whether a newspaper is excess 
because it was not sold, or whether it has been read and thrown 
away by a consumer, we want both of those products, whatever 
you call them, to go back into the production cycle.
    And you identified diversion rates as a way of looking at 
the problem. A diversion rate from a landfill would, in a 
sense, measure success there, because neither of those 
materials would get to the landfill.
    Our vision paper that you referred to in your first 
question really tries to promote the way of thinking where 
whether it is a read newspaper or unsold newspaper, what we are 
doing with the material can be put to beneficial use.
    Mr. Gillmor. Many critics have pointed to the way that the 
law identifies material, particularly by-products of 
manufacturing, as waste. And these critics believe that making 
these products a waste has a chilling effect on the recycling 
reuse and energy recovery. What has your experience taught you 
on this point? And do you think that EPA needs to redefine 
waste?
    Mr. Hale. Again, and I will speak at this point to the 
nonhazardous world we have been talking about, the municipal 
solid waste, the nonhazardous foundry sand. I think it is 
appropriate to look at these materials as materials with 
potential, with potential benefits that need to be--that should 
be taken advantage of. So I think it will be helpful to think 
of them in those terms. To the extent to which calling 
something a waste places a stigma on a certain product, we 
certainly hear that a lot and we have a certain amount of 
sympathy with it, but we also see a lot of recycling and 
materials that in one person's mind or another are considered 
waste.
    Mr. Gillmor. I understand that EPA is struggling with a 
meaningful way to define the terms continuous process and 
generating industry. Some people have argued that can't be 
done. How do you respond to the people who suggest that the 
restriction regarding the generating industry, which EPA is 
crafting in response to the ABR case, no matter how it is 
defined, would liberate very little material from RCRA 
jurisdiction?
    Mr. Hale. I missed the last part.
    Mr. Gillmor. How would you respond to the people who 
suggest that the restriction regarding the generating industry, 
which EPA is crafting in response to the ABR case, no matter 
how you define that, would liberate very little material from 
RCRA jurisdiction?
    Mr. Hale. We are speaking about our recent proposal on 
definition of solid waste. By our estimates in our economic 
analysis, we were estimating approximately a million tons, I 
believe, of material that would be categorized as hazardous 
waste that no longer would be. And we certainly received 
comments that our estimate was too high and our estimate was 
too low. That is at least where we think the figures are until 
we look at the comments in more detail. But you know we will 
have to look at the comments in more detail.
    Mr. Gillmor. I have gone over my time. But I do have one 
last quick question and this comes from a member of the staff 
who is very concerned, why can't you recycle milk jugs anymore?
    Mrs. Capps. The metal ones?
    Mr. Hale. That gets back to the plastic issue again and I 
think plastics, recycling plastics is a problematic area that 
needs more attention.
    Mr. Gillmor. Very good. Gentlelady from California. 
Appreciate the answer on milk jugs from the other lady.
    Mrs. Capps. I thought you meant the steel ones from the 
cow.
    Ms. Solis. This all causes me to think how does one 
actually get a volunteer program in place if we are already 
finding that there are so many corporations and producers of 
different types of plastic that are just not receiving any 
feedback that is really going to be meaningful--there is no 
consequence for them to change? Why would they want to lower 
the degree of whatever it is--ingredients that would be safe 
for us, for communities, if they are not going to be hit with 
any penalties, no tax incentive or no penalty?
    That to me doesn't sound as though we are going to be able 
to achieve any meaningful goals in the next few years, on your 
Web site even, you know, are claiming that we are going to try 
to reach. So you know, I would like to hear from you on that. 
And I also have a question with respect to--we are talking 
about plastics, disposable diapers, for example. We have a big 
problem in Los Angeles with that because they are, in many 
cases, not biodegradable. They do end up in our landfills and 
they obviously contain adverse chemical effects that can result 
with their disposal in landfills.
    And I would like to know what efforts are being made there, 
if there are any, and if there are any programs out there that 
maybe we should know about, particularly as it affects our 
urban communities.
    Mr. Hale. I think, I mean you have asked a general question 
on to--how do we--what is the best strategy for achieving 
increased recycling in a very diffuse area like municipal solid 
waste. I think the approach that we are taking now and we are 
focusing on is, in fact, a voluntary approach and we are 
committed to pursuing that as a viable approach. It certainly 
has worked effectively in a number of instances and a number of 
waste streams, and we are optimistic we can achieve some 
success here, but I think the measure will be how well we 
achieve. Specifics of disposable diapers, I think there have 
been many studies of this as an issue over the years and you 
have competing issues of disposal and landfill capacity and 
production of plastics and you have got another part to the 
country, water use as a significant resource and the balance 
isn't always clear. And I think that is why these issues need 
careful analysis.
    Ms. Solis. Just one last comment here. I know in the 
statement that you gave to our committee regarding this 
program, you mentioned that the Challenge resource conservation 
actually was achieved under the Clinton Administration goal of 
reducing priority chemical releases by 50 percent in 2003, 2 
years ahead of schedule. However, the challenge's February, 
2004 report noted that this goal was actually achieved in 2001. 
Can you explain that discrepancy?
    Mr. Hockey. The data we rely on to measure that progress is 
the toxics release inventory. There is a 2-year data lag from 
the time it is reported until the time it is published. In 
2003, we met the goal using the 2001 data that was available at 
that time.
    Ms. Solis. So you are somewhat taking credit for something 
that happened maybe not on your watch?
    Mr. Hockey. We have been tracking that data as you can see 
back from a base line of 1992, so we have been watching it all 
the way along. It is the data lag that takes the time for the 
companies to report to consolidate the data and publish the 
data.
    Ms. Solis. One other quick question, if I might. There was 
a report that was issued by waste news reported on May 10, that 
the EPA is not on track to meet its goal and quoted an EPA 
official as saying that, ``that is not a problem.'' The goal is 
more about continuing to make recycling progress than the 
particular number. Is that the opinion of EPA, that not meeting 
an established goal is not a problem?
    Mr. Hale. I assume this is talking about the 35 percent 
recycling goal that we have in 2005. No. I think that is a 
problem. I think it is--it is also a national goal. It is a 
goal for the country as a whole, so I think it is a problem for 
all of us. And I think within EPA, I think we have to refine 
our strategy more effectively so we can pick out the key 
elements of the waste stream, office paper, yard waste, et 
cetera, so we more effectively meet those goals.
    Ms. Solis. Haven't you extended that goal for another 3 
years?
    Mr. Hale. We have set 35 percent as our goal for fiscal 
year 2008.
    Ms. Solis. So we haven't reached it and you are hoping in 
perhaps the next 3 years we might get there?
    Mr. Hale. Yes.
    Ms. Solis. How are we going to get there?
    Mr. Hale. We are trying to be more strategic about focusing 
on particular waste streams within the 35 percent mass. In 
other words, a large area of municipal solid waste that is not 
currently being recycled that has got great potential is office 
paper. So we have challenges with the paper industry. We are 
working with different associations to increase the recycling 
of office paper. Yard waste is another area that is a 
significantly high percentage of the solid waste stream where 
there is opportunities for significant increase. So we are 
doing a considerable amount of work in composting of yard waste 
and reuse of yard waste.
    Ms. Solis. I would just hope we could receive more 
substantive materials to hopefully outline those parameters 
that you are talking about and keep in mind--I know that some 
of us have been approached by various industries that are 
saying we are losing a lot of jobs to overseas countries who 
are actually doing recycling of products. We are losing jobs. 
So that is something I would hope you would address as well. 
Thank you.
    Mr. Gillmor. Gentlelady from California, Mrs. Capps.
    Mrs. Capps. Thank you very much, Mr. Chairman. It is very 
serious business in Santa Barbara County where we have a 
landfill called the Tajiguas Canyon landfill, which began many 
years ago before they knew to line the bottoms of them and it 
is leaching out toxic substances, both into the nearby streams 
and into ocean. So this is something we really struggle with in 
the county of Santa Barbara, and these are economic issues. And 
I appreciate my colleagues mentioning that it is a business, 
recycling, and other countries have gotten good at it and we 
have a record that we could really improve upon.
    So I look forward to some of the material you will be 
getting back to us. I want to refer to a table that came from 
NAPCOR, 2002 report on post consumer pet container recycling 
activity. In 1995, the plastics were recycled at the percentage 
of 39.7, these plastics. But in 2002, it has dropped down to 
19.9. And that is very disturbing to me. A lot of these are 
what we see everyday in our landfill because they come out of 
our households and out of our retail workplace situation. And 
so I would like you to respond to that difference. And also, 
you know, you talked about some voluntary programs, but we have 
to reverse that trend in that particular area.
    Mr. Hale. Yeah. I think if you look overall at recycling 
rates, while they are not all that we hoped, they are 
improving. But there are particular streams, plastics being 
one, aluminum being another where the process is discouraging 
and those are areas that we need to focus more attention on.
    Mrs. Capps. And interestingly enough, PET is what soda and 
water bottles are made of, and think about how there has been 
such an explosion in the number of those right here on Capitol 
Hill. We have very recycling opportunities here. But you have 
to hope there is going to be a process by which this comes back 
to us in a different form and that is what recycling is all 
about. While the total material recycled stayed about the same 
or slightly increased, as I say, there has been an explosion in 
the use. Therefore, we really have lowered our amount of 
recycling in this area. And I am asking you, has EPA set a 
specific national recycling goal for plastics bottles made of 
PET?
    Mr. Hale. We don't have a specific goal.
    Mrs. Capps. Can you tell me why?
    Mr. Hale. At this point, within the resource conservation 
challenge, we are developing strategies for different major 
themes, and I don't know whether the beneficial use of them, 
one of our six themes, is going to be developing plastic goals 
or not, but most of our focus up to this point has been on the 
overall numbers rather than the specific numbers associated 
with specific waste streams.
    Mrs. Capps. If I could respectfully suggest that if we are 
looking for something to capture national imagination and 
enthusiasm about something--and I think back to 5 or 10 years 
ago, how many of us carried water bottles then compared to how 
many of us do now, I don't see this number going down, I see it 
only increasing. If we are going to launch a national campaign, 
this is one we could achieve results, but you have to have it 
such that--recycling is something our school kids come home and 
tell family members, this is what we are doing. We are taking 
newspapers. That is how it started in my household years ago. 
And I would love to see--and I would be happy to work with you 
on developing something that would be really catchy that we 
could start and that would, I think, within a very short time, 
raise those percentages just focusing on water bottles and soda 
bottles. I would like you to get back.
    Mr. Hale. Thank you. I think that is worth exploring.
    Mrs. Capps. And I would like to suggest whether you do it 
or we do it here that we set some national goals. I don't know 
that you ever achieve--whatever kind of race you are running, 
you want some goal at the end of it, improving; your time, 
improving the results, comparing ourselves with Europe or any 
other area. This is a competitive country. Let's get busy and 
do something in that arena that we all can get behind. I am 
looking for a project here and I don't see anything coming from 
the EPA. Maybe you are looking to us for it.
    Mr. Hale. No. Thank you. I think that is something we would 
be happy to look at.
    Mrs. Capps. I think there are a few organizations in the 
communities that would love to get behind.
    Mr. Hale. I agree. That is an area we would be happy to 
work with you on. We have a number of specific projects 
targeted toward raising the awareness of school children and we 
also have partnerships with shopping center associations and 
the National Park Service, which--where people carry a lot of 
water bottles around. So I think there is a good potential 
here.
    Mrs. Capps. I look forward and yield back.
    Mr. Gillmor. The gentlelady yields back and I want to thank 
Mr. Hale and Mr. Hockey for being with us today. I have been 
advised that Congressman Stupak has an opening statement and a 
letter attached that he would like inserted in the record.
    [The prepared statement of Hon. Bart Stupak and the letter 
referred to follows:]
 Prepared Statement of Hon. Bart Stupak, a Representative in Congress 
                       from the State of Michigan
    Mr. Chairman, the Resource Conservation Challenge Program under 
discussion today in this subcommittee was established in 2002 under 
Marianne Horinko, the current Assistant Administrator for the 
Environmental Protection Agency (EPA) Office of Solid Waste and 
Emergency Response.
    The Challenge touts itself as a ``national effort to find flexible, 
yet more protective ways to conserve valuable resources through waste 
reduction and energy recovery activities.''
    What this means is that this program, relies solely on voluntary, 
flexible measures and seems to have no intent of establishing guidance 
or promulgating regulations.
    While I am not deeming the Challenge to be a ``bad program,'' there 
are several areas that I would say are questionable.
    The Challenge's ``Year Of Progress Report,'' released last 
February, cited success in several program areas--none of which the 
Challenge itself created, but instead programs that were created in the 
1990s and the Challenge has partnered with.
    The program initially established public goals on chemical waste 
reduction--but later they realized that those goals had been previously 
accomplished by other EPA programs. Upon realizing this it was 
announced that new goals would be established, but it is my 
understanding that no new goals have been formally announced.
    One of the Challenge's previous goals was to increase national 
recycling standards to 35%.
    The Challenge has extended its timeline for achieving this goal to 
2008, but has seemingly not established new guidelines to achieve this 
goal.
    I question the Challenge's effectiveness and where the program 
ranks within the EPA in terms of priority. Perhaps the most telling 
indicator is that neither the Deputy Administrator, nor the Assistant 
Administrator, under whose watch the program was created, could find 
the time to be here today to discuss it.
    While the Challenge hasn't produced much in terms of results, the 
subcommittee is holding a hearing on it, but refuses to take up the 
issue of trash importation. Halting the flow of trash ensures less 
waste.
    The last time this Committee seriously addressed recycling was in 
1992 when it passed out a lengthy recycling bill--but that legislation 
never came to the floor for consideration.
    In my home state of Michigan, we have a very successful bottle 
deposit bill to promote recycling. We are trying to do the right thing 
by taking glass, plastic, and aluminum, out of the waste stream--but 
our efforts are being undermined by the continual dumping of Canada's 
unwanted mixed trash into our landfills.
    The importation of Canadian trash into Michigan and other 
neighboring states, like Ohio and Pennsylvania has been a problem for 
more than a decade. Hundreds of trucks cross the border each day into 
Michigan bringing in a whopping 3.15 million tons of solid waste to the 
state in 2003 alone. Toronto sends 1.1 million tons of trash to the 
U.S. each year.
    Mr. Chairman, on April 5th, I wrote a letter requesting a mark-up 
of one of the three bipartisan bills pending before this committee to 
halt the importation of trash. More than six weeks later, I have yet to 
receive a reply from you.
    Since I haven't received a reply in writing, I will ask once again, 
Mr. Chairman, do you plan on holding a markup on bipartisan legislation 
addressing the issue of out-of-state trash importation this Congress?
    Thank you.
                                 ______
                                 
                                                      April 5, 2004
The Honorable Paul E. Gillmor
Chairman
Environment and Hazardous Materials Subcommittee
Committee on Energy and Commerce
2125 Rayburn HOB
Washington, D.C. 20515
    Dear Chairman Gillmor:
    I am writing to ask that the Subcommittee take immediate action to 
address the issue of trash importation by holding a markup on one of 
the three bills introduced this Congress pertaining to the transport of 
solid waste.
    During a Subcommittee hearing held last week, I brought the 
Subcommittee's lack of action on this issue to your attention. This was 
the first hearing the Subcommittee has held in almost nine months and 
the first markup in this entire Congress, and it was on a grant 
provision specific to one state. There are so many pressing 
environmental issues that the Subcommittee should be addressing, such 
as transport of solid waste, brownfields, superfund, and the high 
concentrations of lead found in Washington, D.C.'s water to name a few.
    Although the Subcommittee held a hearing on solid waste transport 
bills, H.R. 382, H.R. 411, and H.R. 1730, last July, no further action 
has been taken to move these bills out of committee. All three bills 
have bipartisan support. The Subcommittee must act now to give States 
the ability to manage waste coming in from across the border.
    Thank you in advance for your full consideration of my request. 
Should you have any questions or concerns, please contact myself, or 
Amy Fuerstenau of my staff at ext. 5-4735.
    I look forward to your reply.
            Sincerely,
                                                Bart Stupak
                                                 Member of Congress
cc: The Honorable Hilda Solis, Ranking Member

    Mr. Gillmor. I would just like to announce that all members 
will have 5 days to insert opening statements in the record. 
Once again, my thanks to our witnesses and to the members who 
are the stalwarts who attended and the meeting is adjourned.
    [Whereupon, at 2:45 p.m., the subcommittee was adjourned.]
    [Additional material submitted for the record follows:]
  Response of the Environmental Protection Agency to Questions Asked 
                           During the Hearing
                    question by representative otter
    Question. What data do you have on the percentage of recycled 
materials at EPA?
    Answer. EPA has an active recycling and waste diversion program 
across the Agency. The standard recycling program includes collection 
of mixed office paper, newspaper, corrugated cardboard, commingled 
bottles and cans (plastic, glass, steel, and aluminum), and printer and 
copier toner cartridges. EPA is also working to incorporate batteries 
into its standard recycling program. Some EPA offices are also 
participating in pilot recycling projects, such as fluorescent lamp 
recycling; recycling organic material via composting (using food waste 
to make compost); and using paper use reduction driver software. In 
addition, many EPA offices across the nation have special collection 
events (i.e., cell phones, sneakers) throughout the year.
    EPA headquarters collects recycling and waste diversion rate 
information on its standard recycling program in the EPA Federal 
Triangle complex in Washington, D.C. The recycling rate data from two 
of EPA's largest facilities show that, as of March 2004, the recycling 
rate had reached 40%.
    From a national EPA perspective, we have just begun to collect this 
type of information and have yet to institute a stringent data 
collection system. Consequently, data below does not paint the complete 
picture of recycling across EPA, but could be used as an indicator of 
progress. Using the information collected to date, EPA reports the 
following accomplishments:

 45 EPA sites out of the 47 that reported, have an active office 
        products recycling program in place.
 9 EPA sites provided quantitative recycling data, the combined 
        recycling rate is 63% (1,069 of 1,708 metric tons were 
        recycled).
 10 EPA sites reported composting organic material, 12 tons of 
        material were diverted to composing.
 Of the 4 EPA sites that reported demolition projects, all of them 
        stated that they include recovery of construction materials.
                     questions by chairman gillmor
    Question.  What are the national percentages of recycling for waste 
plastics, glass, paper, and aluminum?
    Answer. EPA's report, ``Municipal Solid Waste in the United States: 
2001 Facts and Figures Executive Summary,'' contains our most recent 
data. For 2001, recycling rates (as percent of each material generated 
as waste) were: Plastics--5.5%; Glass--19.1%; Paper--44.9%; and 
Aluminum--24.5%.
    Question. For waste plastics, glass, paper, and aluminum, what 
percentages of these wastes go overseas as exports?
    Answer. EPA does not collect data on material exports. For the year 
2003, the U.S. Department of Commerce reports exports of:

402,270 metric tons of waste plastics (including polymers of ethylene, 
        styrene, vinyl chloride, and polyethylene terephthalate),
23,900 metric tons of scrap glass,
4.2 million metric tons of scrap paper and paperboard, and
560,400 metric tons of aluminum scrap, including used beverage 
        containers.
    Question. For waste plastics, glass, paper, and aluminum, what is 
the diversion rate vs. the recycling rate?
    Answer. EPA considers diversion as a combination of the recycling 
rate and source reduction rate. EPA has data on the national recycling 
rate for municipal solid waste streams and also has data on the per 
capita generation rate. The generation rate has been fairly constant 
over the last several years. It is 4.5 lbs per person per day. For 
2001, the most recent year for which EPA has data, the recycling rates 
for these specific materials are presented above . For all municipal 
solid waste in 2001, the recycling rate was 29.7% .
                   question from representative solis
    Question. How much money was spent on educating underserved/
minority communities on the benefits of recycling?
    Answer. EPA has done outreach and education on recycling to 
Hispanics, African-Americans, American Indians, and the elderly. These 
activities are part of the Resource Conservation Challenge (RCC). The 
total amount spent by EPA Headquarters from 2002-2004 for outreach and 
education to these communities equals $425,365. Anecdotal information 
indicates EPA's Regions have devoted additional resources to similar 
outreach efforts.
    For Hispanic Americans, our outreach consists of initial start-up 
costs in convening focus groups to assess current outreach products and 
to develop a strategy that identified information gaps. The ``You Dump 
It, You Drink It'' Campaign was the first in a series of informational 
products aimed at the Hispanic community. This campaign encourages the 
safe management of used motor oil. EPA's next area of focus is the 
Household Hazardous Waste Campaign (HHW). Both campaigns include print 
and radio public service announcements (PSAs) and routinely exhibiting 
and distributing environmental information--in Spanish and in English--
at a number of conferences that are focused on and/or attract large 
Hispanic audiences. EPA has also translated key documents into Spanish 
and made them available in print and electronically. For 2002-2004, EPA 
has spent $200,365 on these activities.
    For the African American urban community, EPA has developed several 
PSAs aiming to strengthen neighborhood support for recycling and sound 
waste management. The gospel group, Mighty Clouds of Joy, and Shauntay 
Hinton, Miss USA of 2002, recorded the PSAs, which were aired on 100 
radio stations across the country. During 2002-2004, EPA spent $100,000 
on these efforts.
    EPA does outreach to American Indians on recycling through the 
Tribal Journal. It also prepares brochures and fact sheets, and 
disseminates these materials at conferences that are focused on and/or 
attract large American Indian audiences. During 2002-2004, EPA spent 
$100,000 on these activities.
    A growing sector of the US population, the elderly, has also been 
the focal point of education and outreach on recycling. EPA's ``Power 
of Change'' (POC) Campaign encourages older Americans to get involved 
in environmental preservation, and to reduce, reuse, and recycle their 
waste. EPA's expenditures related to this community for this year, the 
first year we've dedicated resources towards this population, equal 
$25,000. The POC Campaign is part of EPA's larger efforts to protect 
the health of Older Americans through its Aging Initiative.
             question from representatives solis and capps
    Question. What steps is EPA taking to increase the recycling rate?
    Answer. EPA has designed and implemented numerous programs with the 
objective of increasing the recycling rate. In the development of these 
programs, we have targeted waste streams as well as specific sectors of 
society to increase the national recycling rate. All of these voluntary 
programs, which are encompassed by the RCC, contain technical 
assistance, public education and outreach, recognition and awards 
programs, fostering partnerships with diverse stakeholders and 
measuring successes. Some of our key programs are:
    WasteWise: This is a voluntary partnership program with 
organizations, businesses, institutions, nonprofit organizations and 
Federal, State, Local and Tribal organizations. These organizations 
agree to increase their recycling rates and reduce their generation of 
their municipal solid waste stream. WasteWise is in its tenth year and 
has secured nearly 1400 partners who are reducing and recycling their 
municipal solid waste by millions of tons each year. In 2002, WasteWise 
was responsible for reducing nearly 7 billion pounds (3.5 million 
tons)--the equivalent of reducing 2.4 million tons of greenhouse 
gasses.
    Greenscapes: This is a voluntary partnership program designed to 
encourage the recycling and reuse of materials used in large-scale 
landscaping projects. The voluntary program provides technical 
assistance to the partners about the cost savings and the specific ways 
to recycle and reuse materials. EPA is encouraging and awarding 
organizations to recycle tires, plastics, yard waste and other 
materials through the Greenscapes program. Greenscapes currently has 
more than 30 partners and allies. Our preliminary research indicates 
that over 12 million tons of yard waste could be composted, 63 million 
tons of tires could be used, and 12 million tons of plastic could be 
used to make products for outdoor landscaping.
    Plug-Into E-Cycling: This is a voluntary partnership program with 
manufacturers, retailers, State and local government and NGOs designed 
to encourage the safe recycling of electronics, one of our fastest 
growing waste streams. Our initial emphasis is on TVs and computers. 
Pilots are well under way which will provide data and intelligence on 
how to scale-up the Plug-Into E-Cycling program and identify roles and 
responsibilities best suited for manufacturers, retailers, state and 
local governments and NGOs. Over 26 million pounds of electronics were 
collected in 2003--the first year of the Plug-In program.
    Green purchasing: The Federal Electronics Challenge is a 
complementary effort in electronics directed towards the Federal 
Government. It is designed not only to increase the recycling of used 
electronics but also to encourage Agencies to buy ``green'' products 
and to use them more efficiently.
    The Federal Government, with extraordinary purchasing power, can 
contribute to increasing the recycling rate. Under the Comprehensive 
Procurement Guidelines Program established by RCRA, EPA designates 
items with recycled content that the Federal Government should 
purchase. EPA has designated over 55 items made with recycled content, 
and in collaboration with the Office of the Federal Environmental 
Executive promotes the purchase of these items.
    Executive Order 13101 directs the Office of the Federal 
Environmental Executive (OFEE) to prepare a biennial report to the 
President on agency implementation of the ``greening the government'' 
executive orders. Information from the latest report ``Leading by 
Example: A Report to the President on Federal Energy and Environmental 
Management (2000-2001)'', depicts the following:
    A number of Federal agencies continue to strengthen their efforts 
to meet the 35% waste diversion goal by putting in place aggressive 
recycling and waste prevention programs. Data reported by the six 
largest procurement agencies DOD, DOE, NASA, GSA, VA, and HHS, indicate 
that almost 90 percent of the offices in these agencies had recycling 
programs in place during 2001. Diversion rates for the six agencies 
varied from 10 to 50 percent. Both DOD and DOE exceeded the 35 percent 
national goal in FY 2001, reaching 36 percent and 54 percent, 
respectively. Both agencies include construction and demolition debris 
in their recycling program.
    Federal agencies continue to purchase products that contain 
recycled material, and those purchases have steadily increased over the 
last decade. In FY 2001, the six largest procuring agencies Department 
of Defense (DOD), Department of Energy (DOE), National Aeronautics and 
Space Administration (NASA), General Services Administration (GSA), 
Department of Veterans Affairs (VA), the Department of Health and Human 
Services (HHS), and the United States Post Office (USPS), reported 
spending more than $717 million on EPA-designated products, with and 
without recycled content. The amount spent on recycled content CPG 
items in FY 2001 was over $490 million, or 68.3% of the purchases of 
those items. The Federal government is working to improve how it tracks 
and reports the purchases of such products.
    Carpet Recycling: EPA has developed a partnership with the Carpet 
America Recovery Effort (CARE), industry and state and local government 
to accelerate the recycling rate for carpeting. The Memorandum of 
Understanding for Carpet Product Stewardship represents a model for 
stewardship that can be applied to other products as well. The MOU 
reflects serious efforts from carpet manufacturers to develop market-
based incentives, and to put more of their resources into recycling. In 
2002, 4.7 million pounds of carpet discards were generated, and 
currently, 96% of waste carpet goes to landfills. Some manufacturers 
have indicated that they can reduce waste to landfill by 80 to 90%.
    America 's Marketplace Recycles: EPA has recently launched a 
voluntary partnership program together with International Council of 
Shopping Centers (ICSC) designed to increase recycling and promote 
environmental responsibility in shopping centers across the nation. 
With 94% of all Americans visiting a shopping center each month, these 
are excellent locations to promote and encourage recycling. Some of the 
waste streams targeted by this partnership are corrugated cardboard, 
shipping pallets, plastic pallet wrap, used beverage containers, 
organic materials, and construction and demolition materials. The 
partners include owners of shopping centers, retailers, manufacturers, 
state and local government and consumers.
    Construction and Demolition Material: Huge amounts of construction 
materials are generated and potentially wasted during the construction, 
renovation and demolition processes, and EPA encourages reuse and 
recycling of these materials. EPA has focused in particular on the 
deconstruction of military bases. We have developed programs with the 
Army Corps of Engineers, the USDA Forest Products Lab, University of 
Florida, the Army Environmental Policy Institute and Austin TX Habitat 
for Humanity ReStore to develop innovative ways to reuse and recycle 
this material. One example: the University of Florida planned and 
executed the deconstruction of an old house on a local Utilities 
property. A planned expansion of a local facility for at-risk youth is 
using 8,000 pounds of materials salvaged from the deconstruction.
    Tire Recycling: EPA has established a goal to recycle and/or reuse 
85 percent of newly generated scrap tire and reduce the number of 
existing tire stockpiles by 55 percent. In 2001, 77.6% of the 281 
million scrip tires were recycled. Our partners include State 
Departments of Transportation, the Federal Highway Administration, and 
the Rubber Manufacturers Association. The Philadelphia Tire Round Up 
Program is an example of federal and local governments working together 
to clean up tires while producing energy. Under this EPA designed 
program, the Philadelphia Streets Department and EPA teamed up with 20 
neighborhood block captains and 17 community and civic groups to 
collect illegally dumped tires.
    Request: Representative Capps requested to work with EPA in 
developing solutions for the declining recycling rate for plastics.
    Response: EPA looks forward to working with Representative Capps on 
programs that are designed to increase the recycling rate for plastics. 
For information on existing programs that are designed to increase 
plastic recycling, please refer to the proceeding questions.

                                 <all>

</pre></body></html>
